21

APPENDIX TO:
William B. Trescott
Petitioner
v.
Federal Motor Carrier Safety Administration
Respondent

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

22

Contents of the Appendix:

OPINION- Ninth Circuit

IBT v. FMCSA - 1

ORDER: Ninth Circuit

IBT v. FMCSA - 37

ORDER: Ninth Circuit

IBT v. FMCSA - 39

MANDATE: Ninth Circuit

IBT v. FMCSA - 42

FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
INTERNATIONAL BROTHERHOOD OF
TEAMSTERS, LOCAL 2785; EVERARDO LUNA,
Petitioners,
v.

No. 18-73488

FEDERAL MOTOR CARRIER SAFETY
ADMINISTRATION,
Respondent, FMCSA No.
2018-0304
WILLIAM B. TRESCOTT,
Intervenor.

INTERNATIONAL BROTHERHOOD OF
TEAMSTERS; INTERNATIONAL BROTHERHOOD
OF TEAMSTERS, LOCAL 848; CHARLES “LUCKY’
LEPINS; JULIO GARCIA; JESUS MALDONADO;
JOSE PAZ,
Petitioners,
v.

No. 19-70323
FMCSA No.
2018-0304

FEDERAL MOTOR CARRIER SAFETY
ADMINISTRATION; U.S. DEPARTMENT OF
TRANSPORTATION,
Respondents.

Appendix IBT v. FMCSA - 2

LABOR COMMISSIONER FOR THE STATE OF
CALIFORNIA,
Petitioner,
No. 19-70329
v.
FMCSA No.
2018-0304
FEDERAL MOTOR CARRIER SAFETY
ADMINISTRATION, Respondent.

DUY NAM LY; PHILLIP MORGAN,
Petitioners,
No. 19-70413
FMCSA No.
2018-0304

v.

FEDERAL MOTOR CARRIER SAFETY
ADMINISTRATION; U.S. DEPARTMENT OF
TRANSPORTATION,
Respondents.
OPINION

On Petition for Review of an Order of the Federal
Motor Carrier Safety Administration
Argued and Submitted November 16, 2020 San
Francisco, California
Filed January 15, 2021
Before- Jacqueline H. Nguyen, Andrew D. Hurwitz,
and Daniel A. Bress, Circuit Judges.
Opinion by Judge Bress

Appendix IBT v. FMCSA - 3
SUMMARY1

Federal Motor Carrier Safety Administration
The panel denied petitions for review of the
Federal Motor Carrier Safety Administration
(“FMCSA’O’s determination that federal law preemp­
ted California’s meal and rest break rules (the “MRB
rules”), as applied to drivers of property-carrying
commercial motor vehicles who are subject to the
FMCSA’s own rest break regulations.
The FMCSA only has the authority to review
for preemption State laws and regulations “on com­
mercial motor vehicle safety.” 49 U.S.C. § 31141(c).
The panel held the agency’s interpretation of
the statute and the phrase “on commercial motor
vehicle safety” merited deference under Chevron,
U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984), where the FMCSA
acknowledged that it was departing from its 2008
interpretation of § 31141 and provided a reasoned
analysis why it was doing so. The panel rejected
petitioners’ arguments that Chevron deference was
inapplicable.
Turning to Chevron’s two-step framework, the
panel held that even assuming petitioners identified
a potential ambiguity in the statute, the agency’s

1 This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

Appendix IBT v. FMCSA - 4
reading was a permissible one.
The FMCSA
reasonably determined that a State law “on
commercial motor vehicle safety” was one that
“imposes requirements in an area of regulations that
is already addressed by a regulation promulgated
under [section] 31136.” 83 Fed. Reg. at 67,473 (Dec.
28, 2018). The FMCSA’s 2018 preemption decision
also reasonably relied on Congress’s stated interest
in uniformity of regulation. The fact that California
regulated meal and rest breaks in a variety of
industries did not compel the conclusion that the
MRB rules were not “on commercial motor vehicle
safety.” Finally, the panel held that the decision in
Dilts v. Penske Logistics, LLC, 769 F.3d 637 (9th Cir.
2014), did not foreclose the FMCSA’s interpretation.
The panel concluded that the FMCSA permissibly
determined that California’s MRB rules were State
regulations “on commercial motor vehicle safety,” so
that they were within the agency’s preemption
authority.
The panel held that the FMCSA’s determina­
tion that the MRB rules were “additional to or more
stringent than” the federal regulation was reason­
able and supported. 49 U.S.C. § 31141(c)(1). The
FMCSA reached this conclusion because California
required more breaks, more often and with less
flexibility as to timing. The panel rejected petition­
ers’ challenges to this determination.
The panel held that the FMCSA did not act
arbitrarily or capriciously in finding that enforce­
ment of the MRB rules “would cause an unreason­
able burden on interstate commerce.” 49 U.S.C. §
31141(c)(4)(C). Petitioners’ counterarguments did
not show that the agency acted arbitrarily or Capri-

Appendix IBT v. FMCSA - 5
ciously.

COUNSEL
Deepak Gupta (argued), Jonathan E. Taylor,
Gregory A. Beck, and Neil K. Sawhney, Gupta
Wessler PLLC, Washington, D.C.; Stan Saltzman,
Marlin & Saltzman, Agoura Hills, California; for
Petitioners Duy Nam Ly and Phillip Morgan.
Miles E. Locker (argued), Attorney, Division of Labor
Standards Enforcement, Department of Industrial
Relations, San Francisco, California; Xavier Becerra,
Attorney General; Satoshi Yanai, Supervising
Deputy Attorney General; Marisa Hernandez-Stern,
Deputy Attorney General; Office of the Attorney
General, Los Angeles, California; for Petitioner
Labor Commissioner for the State of California.
Julie Gutman Dickinson, Ira L. Gottlieb, Kiel B.
Ireland, and Hector De Haro, Bush Gottlieb,
Glendale, California, for Petitioner International
Brotherhood of Teamsters, International Brother­
hood of Teamsters, Local 848; Charles “Lucky”
Lepins; Julio Garcia; Jesus Maldonado; and Jose
Paz.
David A. Rosenfeld and Caitlin Gray, Weinberg
Roger & Rosenfeld, Alameda, California, for Petition­
ers International Brotherhood of Teamsters, Local
2785, and Everardo Luna.
William B.
Intervenor.

Trescott, Bay City, Texas, pro se

Appendix IBT v. FMCSA - 6
Jennifer L. Utrecht (argued) and Mark B. Stern,
Appellate Staff; Joseph H. Hunt, Assistant Attorney
General; Civil Division, United States Department of
Justice, Washington, D.C.; Steven G. Bradbury,
General Counsel; Paul M. Geier, Assistant General
Counsel; Charles E. Enloe, Trial Attorney; United
States Department of Transportation, Washington,
D.C.; Alan Hanson, Chief Counsel; Charles J.
Fromm, Deputy Chief Counsel; Sue Lawless,
Assistant Chief Counsel; Tracy M. White, AttorneyAdvisor; Federal Motor Carrier Safety Administra­
tion, Washington, D.C.; for Respondents.
Adam Berger, Schroeter Goldmark & Bender,
Seattle, Washington; Daniel F. Johnson, Breskin
Johnson & Townsend PLLC, Seattle, Washington;
Aaron Kaufmann, Leonard Carder LLP, Oakland,
California; Ashley Westby, National Employment
Lawyers Association/The Employee Rights Advocacy
Institute for Law & Policy, Washington, D.C.; for
Amici Curiae State and National Employment
Lawyers Associations.
Robert W. Ferguson, Attorney General; Anastasia
Sandstrom, Seattle, Washington; for Amicus Curiae
Washington State.
David R. Krause-Leemon, Beaudoin & KrauseLeemon LLP, Sherman Oaks, California; Aaron
Parker, PODS Enterprises LLC, Clearwater, Florida;
Carl Bentzel, Bentzel Strategies LLC, Bowie,
Maryland; Bob Fatovic, Ryder Systems Inc., Miami,
Florida; for Amici Curiae Specialized Carriers &
Rigging Association, PODS Enterprises LLC, Ryder
System Inc., and Western States Trucking
Association.

Appendix IBT v. FMCSA - 7
Richard Pianka, ATA Litigation Center, Arlington,
Virginia, for Amici Curiae American Trucking
Associations Inc., California Trucking Association,
Washington Trucking Associations, Intermodal As­
sociation of North America, and American Moving
and Storage Association.
Adam Smedstad, Scopelitis Garvin Light Hanson &
Feary P.C., Seattle, Washington; James H. Hanson,
Scopelitis Garvin Light Hanson & Feary P.C.,
Indianapolis, Indiana! for Amici Curiae CRST
Expedited Inc., FAF Inc., Heartland Express Inc. of
Iowa, John Christner Trucking LLC, Penske
Logistics LLC, Penske Truck Leasing Co. L.P., Rail
Delivery Services Inc., and U.S. Xpress Inc.
Malcolm A. Heinicke and Joseph D. Lee, Munger
Tolies & Olson LLP, Los Angeles, California; Daryl
Joseffer and Tara S. Morrissey, U.S. Chamber
Litigation Center, Washington, D.C.; for Amicus
Curiae Chamber of Commerce of the United States.

OPINION
BRESS, Circuit JudgeThe Federal Motor Carrier Safety Administra­
tion (FMCSA), an agency within the Department of
Transportation, is tasked with issuing regulations on
commercial motor vehicle safety. The FMCSA also
has authority to determine that state laws on
commercial motor vehicle safety are preempted,
based on criteria Congress has specified. In this
case, the FMCSA determined that federal law

Appendix IBT v. FMCSA - 8
preempts California’s meal and rest break rules,
known as the “MRB rules,” as applied to drivers of
property carrying commercial motor vehicles who
are subject to the FMCSA’s own rest break
regulations. Compared to federal safety regulations,
California’s MRB rules generally require that em­
ployers allow commercial truck drivers to take more
rest breaks, at greater frequency, and with less
flexibility as to when breaks occur.
California’s Labor Commissioner, certain labor
organizations, and others now petition for review of
the FMCSA’s preemption determination. Because
the agency’s decision reflects a permissible inter­
pretation of the Motor Carrier Safety Act of 1984 and
is not arbitrary or capricious, we deny the petitions
for review.
I
A
Congress passed the Motor Carrier Safety Act
of 1984 “to promote the safe operation of commercial
motor vehicles, [and] to minimize dangers to the
health of operators of commercial motor vehicles and
other employees.” Pub. L. No. 98-554, tit. II, 98 Stat.
2832, § 202 (originally codified at 49 U.S.C. app.
2501). Under the Act, the Secretary of Transporta­
tion “shall prescribe regulations on commercial motor
vehicle safety” that contain “minimum safety stand­
ards for commercial motor vehicles.” 49 U.S.C. §
31136(a). Among other things, federal regulations
“shall ensure” that “the responsibilities imposed on
operators of commercial motor vehicles do not impair
their ability to operate the vehicles safely.” Id. §

Appendix IBT v. FMCSA - 9
31136(a)(2).
The Act also gives the Secretary the express
power to preempt State law: “A State may not en­
force a State law or regulation on commercial motor
vehicle safety that the Secretary of Transportation
decides under this section may not be enforced.” Id.
§ 31141(a). To carry out this duty, “[t]he Secretary
shall review State laws and regulations on com­
mercial motor vehicle safety.” Id. § 31141(c)(1).
The statute provides a multi-step process that
the Secretary must follow in conducting this review.
The Secretary must first compare the State law or
regulation at issue to a regulation prescribed by the
Secretary under 49 U.S.C. § 31136 and decide
whether the State law “has the same effect as,” “is
less stringent than,” or “is additional to or more
stringent than” the federal regulation.
Id. §
31141(c)(1). If the Secretary decides a State law or
regulation has the “same effect” as the federal
regulation, “the State law or regulation may be
enforced.” Id. § 31141(c)(2). If a State law is less
stringent than the federal regulation, “the State law
or regulation may not be enforced.” Id. § 31141(c)(3).
If the Secretary decides that a State law is
“additional to or more stringent” than a federal
regulation, another decision tree applies. At that
point, the State law “may be enforced unless the
Secretary also decides that — (A) the State law or
regulation has no safety benefit; (B) the State law or
regulation is incompatible with the regulation
prescribed by the Secretary; or (C) enforcement of
the State law or regulation would cause an
unreasonable burden on interstate commerce.” Id. §

Appendix IBT v. FMCSA - 10
31141(c)(4).
When considering the burden on
interstate commerce, “the Secretary may consider the
effect on interstate commerce of implementation of
that law or regulation with the implementation of all
similar laws and regulations of other States.” Id. §
31141(c)(5).
The Secretary has delegated its rulemaking
and preemption authority to the Administrator of the
FMCSA. 49 C.F.R. § 1.87(f).
B
Federal regulations impose limits on the
driving time for commercial motor vehicle drivers.
These are known as the hours-of-service regulations.
Under federal law, a property-carrying commercial
motor vehicle driver “may not drive without first
taking 10 consecutive hours off duty,” 49 C.F.R. §
395.3(a)(1) (2018),2 and “may not drive after the end
of the 14-consecutive-hour period without first tak­
ing 10 consecutive hours off duty,” id. § 395.3(a)(2).
Within that 14-hour period, a driver may only drive
11 hours. Id. § 395.3(a)(3)(i). Federal regulations
also impose weekly driving limits. Id. § 395.3(b)
(prohibiting a driver from being on duty for more
than 60 or 70 hours in seven or eight consecutive
days, respectively).

2 The FMCSA revised 49 C.F.R. § 395.3 in 2019, and again in
2020. See Hours of Service of Drivers—Restart Provision, 84
Fed. Reg. 48,077 (Sept. 12, 2019); Hours of Service of Drivers,
85 Fed. Reg. 33,396 (June 1, 2020). In this opinion, we cite the
2018 version of the regulation, the rule in place at the time of
the FMCSA’s preemption determination. But the 2019 and
2020 changes do not affect the preemption analysis.

Appendix IBT v. FMCSA -11

In 2011, the FMCSA revised the federal hours of-service regulations and adopted the rules on
breaks for truck drivers that form the basis for the
FMCSA’s 2018 decision to preempt California’s MRB
rules. See Hours of Service of Drivers, 76 Fed. Reg.
81,134, 81,188 (Dec. 27, 2011) (codified at 49 C.F.R. §
395.3). Except for certain “short- haul” drivers, a
property-carrying commercial motor vehicle driver
working more than eight hours must take at least
one 30-minute break during the first eight hours,
although the driver has flexibility as to when the
break occurs. 49 C.F.R. § 395.3(a)(3)(ii). That 30minute break can be spent “off-duty” or in a “sleeper
berth.” Id.3 The 2011 break requirement supple­
mented longstanding federal regulations prohibiting
a driver from operating a commercial motor vehicle if
too fatigued or unable to safely drive. 49 C.F.R. §
392.3. Employers may not coerce drivers to violate
this rule or the hours-of-service rules. Id. § 390.6.
The federal regulations do not require other breaks.
The California rules are different. California’s
rules are contained in wage orders issued by the
State’s Industrial Welfare Commission (IWC), which
is tasked with protecting workers’ “health, safety,
and welfare.” Martinez v. Combs, 231 P.3d 259, 271

3 Under the 2020 revisions to the regulation, the 30-minute
break requirement now applies “only when a driver has driven
(instead of having been on-duty) for a period of 8 hours without
at least a 30-minute non-driving interruption.” 85 Fed. Reg. at
33,396. Additionally, a driver can now satisfy the break re­
quirement with “any non-driving period of 30 minutes, i.e., onduty, off-duty, or sleeper berth time.” Id.’, see also 49 C.F.R. §
395.3(a)(3)(ii) (2020).

Appendix IBT v. FMCSA - 12
(Cal. 2010) (quoting Cal. Lab. Code § 1173). To that
end, the IWC has issued eighteen wage orders,
mostly on an industrywide or occupation-wide basis.
Cal. Code Regs. tit. 8, §§ 11010-11170; Martinez, 231
P.3d at 272-73. These orders cover all employees in
California unless they are specifically exempted. See
Brinker Rest. Corp. v. Superior Court, 273 P.3d 513,
521 n.l (Cal. 2012); Martinez, 231 P.3d at 273 &
n.24; Cal. Code Regs. tit. 8, § 11170(l)(A). Seventeen
IWC orders contain meal period requirements and
sixteen contain rest period requirements. See Cal.
Code Regs. tit. 8, §§ 11010-11170.
Wage Order 9-2001 applies to “all persons
employed in the transportation industry,” which
necessarily includes property-carrying commercial
truck drivers. Id. § 11090(l). Under the order, an
employee working more than five hours a day is
entitled to a “meal period of not less than 30
minutes.” Id. § 11090(1 l)(A). If, however, “a work
period of not more than six (6) hours will complete
the day’s work the meal period may be waived by
mutual consent of the employer and the employee.”
Id. An employee is entitled to “a second meal period
of not less than 30 minutes” when working more
than 10 hours in a day. Id. § 11090(1 l)(B). The
employee and employer can only agree to waive the
second meal break if the employee does not work
more than 12 hours in a day and did not waive the
first break. Id.', see also Cal. Lab. Code § 512(a)
(imposing these same meal break rules for all
employees unless otherwise exempted).
The California Wage Order also entitles
transportation industry employees to 10-minute rest
breaks for every four hours worked throughout the

Appendix IBT v. FMCSA- 13
day. Cal. Code Regs. tit. 8, § 11090(12)(A). These
rest breaks “insofar as practicable shall be in the
middle of each work period.” Id. California’s Labor
Commissioner can grant an employer an exemption
from the rest break requirement if it “would not
materially affect the welfare or comfort of employees
and would work an undue hardship on the employ­
er.” Id. § 11090(17).
Under California law, an employer who fails
to provide a meal or rest break must “pay the
employee one additional hour of pay at the
employee’s regular rate of compensation for each
workday that the meal or rest or recovery period is
not provided.” Cal. Lab. Code § 226.7(c); see also
Cal. Code Regs. tit. 8, § 11090(1 l)(D), (12)(B).
Employees can bring a claim seeking such payment
under California’s Private Attorneys General Act of
2004 (PAGA), Cal. Lab. Code §§ 2698-2699.6. See
Cal. Lab. Code § 2699.3. Employees can also seek
civil penalties on behalf of themselves and other
employees; the State receives a portion of any award.
Id. § 2699.
C
In response to a petition from a group of motor
carriers, the FMCSA in 2008 declined to preempt
California’s MRB rules as applied to commercial
motor vehicle drivers subject to FMCSA’s hours-ofservice regulations. See Petition for Preemption of
California Regulations on Meal Breaks and Rest
Breaks for Commercial Motor Vehicle Drivers; Re­
jection for Failure to Meet Threshold Requirement,
73 Fed. Reg. 79,204, 79,204-06 (Dec. 24, 2008). The
FMCSA ruled that it lacked the authority to preempt

Appendix IBT v. FMCSA - 14
because the MRB rules applied far beyond the
trucking industry and were thus not “on commercial
motor vehicle safety.” Id. at 79,205-06.
In 2018, two industry groups, the American
Trucking Association and the Specialized Carriers
and Rigging Association, asked the FMCSA to revisit
its 2008 “no preemption” determination.
After
seeking public comment on the preemption question,
see California Meal and Rest Break Rules, 83 Fed.
Reg. 50,142 (Oct. 4, 2018), the FMCSA declared
California’s MRB rules preempted as applied to
operators of property-carrying motor vehicles subject
to the federal hours-of-service regulations.4 See
California’s Meal and Rest Break Rules for Com­
mercial Motor Vehicle Drivers, 83 Fed. Reg. 67,470
(Dec. 28, 2018). The FMCSA determined that the
MRB rules were in fact “on commercial motor vehicle
safety” and could not be enforced under 49 U.S.C. §
31141(c). 83 Fed. Reg. 67,472-80.
California’s Labor Commissioner and three
other sets of petitioners (labor organizations and
affected individuals) filed timely petitions for review.
See 49 U.S.C. § 31141(f)(1). We have jurisdiction to
review these consolidated petitions under 49 U.S.C. §
31141(f)(2). Although the petitioners place different
weight on different points, for ease of reference we
generally refer to them collectively as “petitioners.”

4 The preemption determination does not apply to drivers of
passenger-carrying commercial motor vehicles. 83 Fed. Reg. at
67,470 n.l.

Appendix IBT v. FMCSA- 15
II
We review the FMCSA’s preemption determin­
ation under the Administrative Procedure Act (APA)
framework for judicial review. The question is there­
fore whether the FMCSA’s preemption decision was
“arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law,” or “in excess
of statutory jurisdiction, authority, or limitations, or
short of statutory right.” 5 U.S.C. § 706(2)(A), (C).
Petitioners argue both that the FMCSA lacks the
statutory authority to preempt the MRB rules, and,
to the extent it could do so, that the agency’s
preemption decision was arbitrary and capricious.
Based on our careful review of the FMCSA’s decision
and after applying the deference that is due the
agency, we conclude that petitioners’ challenges lack
merit.
A
The FMCSA only has authority to review for
preemption State laws and regulations “on commer­
cial motor vehicle safety.” 49 U.S.C. § 31141(c). The
initial question we must address is the meaning of
this phrase.
In its preemption determination, the FMCSA
concluded that a State law or regulation is “on
commercial motor vehicle safety” if it “imposes
requirements in an area of regulation that is already
addressed by a regulation promulgated under
[section] 31136.’” 83 Fed. Reg. at 67,473. Under this
interpretation, the MRB rules are “on commercial
motor vehicle safety” because federal regulations
promulgated under section 31136 govern breaks for

Appendix IBT v. FMCSA - 16
commercial motor vehicle drivers. Id.
The petitioners argue that laws “on commer­
cial motor vehicle safety” are those specifically
directed at commercial motor vehicle safety. They
maintain that the MRB rules do not qualify because
they apply to many workers other than truck drivers
and regulate employee health and wellbeing gen­
erally. The FMCSA counters that at the very least,
the statute is ambiguous and that the agency’s
interpretation merits deference under Chevron,
U.S.A., Inc. v. Natural Resources Defense Council,
Inc., 467 U.S. 837 (1984).
We reject, at the outset, petitioners’ arguments
that Chevron deference is inapplicable. An agency
usually receives Chevron deference in its construc­
tion of an ambiguous statute that it administers.
See FDA v. Brown & Williamson Tobacco Corp., 529
U.S. 120, 159 (2000). Relying mainly on Wyeth v.
Levine, 555 U.S. 555 (2009), petitioners argue that
the FMCSA is entitled to no deference when it comes
to preemption determinations. But Wyeth does not
apply here.
In Wyeth, the Supreme Court declined to defer
to the FDA’s preemption decision because “Congress
ha[d] not authorized the FDA to pre-empt state law
directly.” 555 U.S. at 576. That is not the case here
because Congress in 49 U.S.C. § 31141(a) expressly
gave the agency authority to preempt “State law[s]
and regulation[s] on commercial motor vehicle
safety” when the agency “decides” certain criteria are
met. Because the agency’s power to preempt is part
of the overall power Congress expressly delegated to
it, Wyeth does not diminish the deference due the

i

Appendix IBT v. FMCSA - 17
agency’s interpretation of a statute it is charged with
administering.
See Wyeth, 555 U.S. at 576-77
(explaining that “agencies have no special authority
to pronounce on pre-emption absent delegation by
Congress” (emphasis added)); id. at 576 & n.9
(contrasting the FDA’s lack of express preemptive
power with statutes that gave agencies the power to
preempt state laws); Durnford v. MusclePharm
Corp., 907 F.3d 595, 601 n.6 (9th Cir. 2018) (agencies
do not receive Chevron deference in interpreting a
preemption provision “[i]n the absence of a specific
congressional delegation of authority to interpret the
scope of preemption”); see also City of Arlington v.
FCC, 569 U.S. 290, 297 (2013) (rejecting “[t]he
misconception that there are, for Chevron purposes,
separate ‘jurisdictional’ questions on which no
deference is due”).
The petitioners also argue that the FMCSA
should receive no deference because the 2018
preemption determination reversed the agency’s
2008 determination that it lacked the power to
preempt California’s MRB rules. But we have ex­
plained that “[a]n initial agency interpretation is not
instantly carved in stone” because “the agency . . .
must consider varying interpretations and the wis­
dom of its policy on a continuing basis.” Resident
Councils of Wash. v. Leavitt, 500 F.3d 1025, 1036
(9th Cir. 2007) (quoting Chevron, 467 U.S. at 86364). As a result, “an agency’s ‘new’ position is
entitled to deference ‘so long as the agency
acknowledges and explains the departure from its
prior views.’” Id. (quoting Seldovia Native Ass’n v.
Lujan, 904 F.2d 1335, 1346 (9th Cir. 1990)); see also
Natl Cable & Telecomms. Ass’n v. Brand X Internet
Servs., 545 U.S. 967, 981, 1001 (2005) (explaining

Appendix IBT v. FMCSA - 18
that an agency “is free within the limits of reasoned
interpretation to change course if it adequately
justifies the change” and that “[algency inconsistency
is not a basis for declining to analyze the agency’s
interpretation under the Chevron framework”); Rust
v. Sullivan, 500 U.S. 173, 186 (1991) (explaining that
the Supreme Court “has rejected the argument that
an agency’s interpretation is not entitled to deference
because it represents a sharp break with prior
interpretations of the statute in question” (quota­
tions omitted)).
These principles of administrative law recog­
nize that democratic processes, improved under­
standings, or changed circumstances may prompt
agencies to alter their own views over time.
Petitioners have not articulated how a rule that
precludes deference anytime an agency changes its
mind could be justified under the basic delegation
theory animating Chevron. See Smiley v. Citibank
(S.D.), N.A., 517 U.S. 735, 742 (1996) (“[Clhange is
not invalidating, since the whole point of Chevron is
to leave the discretion provided by the ambiguities of
a statute with the implementing agency.”). Nor have
petitioners explained why the agency would be
required to hew to a statutory interpretation that it
no longer believes is correct. See Good Samaritan
Hosp. v. Shalala, 508 U.S. 402, 417 (1993) (“The
Secretary is not estopped from changing a view she
believes to have been grounded upon a mistaken
legal interpretation.”).
In this case, the FMCSA acknowledged that it
was departing from its 2008 interpretation of §
31141 and provided a reasoned analysis for why it
was doing so. See Resident Councils of Wash., 500

Appendix IBT v. FMCSA - 19
F.3d at 1036. The FMCSA explained that its earlier
2008 interpretation “was unnecessarily restrictive”
because “[t]here is nothing in the statutory language
or legislative history that supports” its prior decision
limiting the preemption provision to State laws
specifically directed at commercial motor vehicle
safety. 83 Fed. Reg. at 67,473. The FMCSA also
explained how circumstances had changed since
2008, because the agency in 2011 had enacted
specific break regulations for commercial motor
vehicle drivers. Id. at 67,474. These are the types of
explanations that an agency can offer to ensure that
Chevron deference is applied to its new interpreta­
tion. See, e.g., Brand X Internet Servs., 545 U.S. at
981, 1001.
Turning to Chevron’s familiar two-step frame­
work, we first ask whether the statutory text is
unambiguous. “If the intent of Congress is clear,
that is the end of the matter; for the court, as well as
the agency, must give effect to the unambiguously
expressed intent of Congress.” Chevron, 467 U.S. at
842-43.
But if the statute is ambiguous, “the
question for the court is whether the agency’s answer
is based on a permissible construction of the statute.”
Id. at 843. Here, even assuming petitioners have
identified a potential ambiguity in the statute, we
hold that the agency’s reading is a permissible one.
Once again, the operative statutory language
is the phrase “on commercial motor vehicle safety.”
49 U.S.C. § 31141(a), (c). The FMCSA reasonably
determined that a State law “on commercial motor
vehicle safety” is one that “imposes requirements in
an area of regulation that is already addressed by a
regulation promulgated under [section] 31136.” 83

Appendix IBT v. FMCSA - 20
Fed. Reg. at 67,473. Section 31136(a) allows the
FMCSA to issue regulations “on commercial motor
vehicle safety.” Given the parallel language used in
sections 31136(a) and 31141(a), when the agency has
issued a regulation under its section 31136(a)
authority, it is reasonable for the agency to interpret
section 31141(a) analogously to allow preemption of
State regulation in that same area.
The FMCSA’s 2018 preemption decision also
reasonably relied on Congress’s stated interest in
uniformity of regulation. See 83 Fed. Reg. at 67,473
(explaining that the 1984 Act “clearly expresses
Congress’s intent that ‘there be as much uniformity
as practicable whenever a Federal standard and a
State requirement cover the same subject matter’”)
(quoting S. Rep. No. 98-424, at 14 (1984)); see also
Motor Carrier Safety Act of 1984 § 203(2), 98 Stat. At
2832 (originally codified at 49 U.S.C. app. 2502)
(finding safety benefits from “improved, more
uniform commercial motor vehicle safety measures”).
The FMCSA could reasonably conclude that a State
law disrupts regulatory uniformity even when the
law was not specifically directed at commercial
vehicle motor safety because a broader State law
could still cover the same subject matter as FMCSA
regulations.
Petitioners argue that the word “on” must be
read narrowly, so that the FMCSA can only preempt
State laws “specifically directed” at commercial
motor vehicle safety. Petitioners thus maintain that
the MRB rules cannot be “on commercial motor
vehicle safety” because they also regulate working
conditions and ensure employee health and
wellbeing. But that the MRB rules may serve these

Appendix IBT v. FMCSA - 21
other purposes cannot insulate them from preemp­
tion when, as here, the rules also promote commer­
cial motor vehicle safety. See, e.g., 83 Fed. Reg. at
67,474 (“[I]n her comments on this petition, the
California Labor Commissioner acknowledged that
the MRB Rules improve driver and public safety
stating, ‘It is beyond doubt that California’s meal
and rest period requirements promote driver and
public safety.’”).
Nor does the fact that California regulates
meal and rest breaks in a variety of industries
compel the conclusion that the MRB rules are not “on
commercial motor vehicle safety.” If California had
specifically regulated the meal and break times of
commercial motor vehicle drivers and no one else,
that would of course be a regulation “on” commercial
motor vehicle safety. But those drivers remain
subject to the same regulations when California also
applies its break laws to other types of workers.
Because California’s MRB rules apply to drivers
whose breaks are the subject of federal regulation
“on commercial motor vehicle safety,” the MRB rules
can be described as laws “on” commercial motor
vehicle safety as well. Or at least the FMCSA could
permissibly conclude that was so. See Brand X
Internet Servs., 545 U.S. at 989 (“[Wjhere a statute’s
plain terms admit of two or more reasonable
ordinary usages, the [agency’s] choice of one of them
is entitled to deference.”).
Petitioners nevertheless suggest that the word
“on” is inherently narrow and at least narrower than
the phrase “pertaining to,” which was the Motor
Carrier Safety Act’s original language. See §§ 206OS, 98 Stat. at 2832-37. But we conclude that the

Appendix IBT v. FMCSA - 22
statute does not unambiguously require petitioners’
reading. See Chevron, 467 U.S. at 842-43. The
word “on” is not inevitably as narrow as petitioners
claim. See On, prep., Oxford English Dictionary (2d
ed. 1989) (“22. a. In regard to, in reference to, with
respect to, as to.”),
https7/www.oed.com/oed2/00163302.
The history of the 1994 revision also counsels
against petitioners’ more confined reading. Congress
changed “pertaining to” to “on” or “related to” in
several provisions in a 1994 recodification. See Pub.
L. No. 103-272, sec. 1(d), § 3114l(a)-(c), 108 Stat.
745, 1008-09 (1994). But Congress made clear that
these changes “may not be construed as making a
substantive change in the laws replaced.” Id. sec.
6(a), 108 Stat. at 1378. And “no changes in law or
policy are to be presumed from changes of language”
in a statutory recodification “unless an intent to
make such changes is clearly expressed.” Finley v.
United States, 490 U.S. 545, 554 (1989) (quotations
omitted), superseded by statute on other grounds, as
recognized in Exxon Mobil Corp. v. Allapattah
ServsInc., 545 U.S. 546 (2005). Given the circum­
stances of the 1994 amendments and the ambiguity
that otherwise exists between “on” and “pertaining
to,” petitioners have not shown that the 1994
recodification compels their preferred interpretation
of the statutory text.
Given the language in the statute, the FMCSA
could reasonably reject petitioners’ charge that its
reading of “on” would give the FMCSA unlimited
power to preempt any law that merely “affects”
commercial motor vehicle safety in some tangential
way. 83 Fed. Reg. at 67,473. Petitioners argue, for

Appendix IBT v. FMCSA - 23
example, that the agency’s reading of “on” would
allow the FMCSA to preempt state laws allowing for
pregnancy disability leave or leave to serve on a jury.
These concerns, however, are overstated. The agency
has not ushered in an era of unbounded FMCSA au­
thority through its interpretation of the preposition
“on.”

The agency’s interpretation is more circum­
scribed than petitioners suggest: MRB rules are
regulations “on commercial motor vehicle safety”
because they are within FMCSA’s specific regulatory
domain and the subject of existing federal regulation
in the very same area. The agency has issued
particularized regulations that govern break times
for drivers of property-carrying commercial motor
vehicles, and there is no dispute those are regula­
tions “on commercial motor vehicle safety.” There is
thus no reason to believe that the agency’s reading of
“on” would allow it to issue regulations and preempt
State laws in areas outside its delegated authority.
Indeed, the agency expressly disclaims that power.
See 83 Fed. Reg. at 67,473 (“This determination does
not rely on a broad interpretation of section 31141 as
applicable to any State law that ‘affects’ [commercial
motor vehicle] safety.”). The FMCSA’s interpretation
of “on” does not lead to such far-reaching authority,
either. While petitioners stress that the MRB rules
apply across many industries, the FMCSA has not
preempted those state laws generally, but only as
applied to drivers of property-carrying commercial
motor vehicles subject to federal regulation.
Nor is the FMCSA’s interpretation rendered
unreasonable in the face of a claimed presumption
against preemption. The Supreme Court has in-

Appendix IBT v. FMCSA - 24
structed that the “inquiry into the scope of a [federal]
statute’s pre-emptive effect is guided by the rule that
the purpose of Congress is the ultimate touchstone in
every pre-emption case.” Hughes v. Talen Energy
Mktg, LLC, 136 S. Ct. 1288, 1297 (2016) (alteration
in original) (quoting Altria Grp., Inc. v. Good, 555
U.S. 70, 76 (2008)). When, as here, “the statute
‘contains an express pre-emption clause,’ we do not
invoke any presumption against pre-emption but
instead ‘focus on the plain wording of the clause,
which necessarily contains the best evidence of
Congress’ pre-emptive intent.’”
Puerto Rico v.
Franklin Cal. Tax-Free Tr., 136 S. Ct. 1938, 1946
(2016) (quoting Chamber of Com. of U.S. v. Whiting,
563 U.S. 582, 594 (2011)); see also Atay v. County of
Maui, 842 F.3d 688, 699 (9th Cir. 2016) (same).
Petitioners maintain that the MRB rules are
part of California’s traditional “police power” and
that a presumption against preemption should there­
fore still apply. But a state’s traditional regulation
in an area is not, standing alone, sufficient to defeat
preemption in the face of an express preemption
clause. As we have explained in the context of the
MRB rules in particular, “[w]age and hour laws
constitute areas of traditional state regulation,
although that fact alone does not ‘immunize’ state
employment laws from preemption if Congress in
fact contemplated their preemption.” Dilts v. Penske
Logistics, LLC, 769 F.3d 637, 643 (9th Cir. 2014). In
this case, the issue is not the general preemptive
force of 49 U.S.C. § 31141(a), but the agency’s
decision to exercise its express statutory preemptive
powers. Petitioners have not explained how a casedispositive presumption against preemp-tion could
override an agency’s textually permissible inter-

Appendix IBT v. FMCSA - 25
pretation of an express preemption provision it is
charged with administering.
Finally, our decision in Dilts, 769 F.3d 637,
does not foreclose the FMCSA’s interpretation. Dilts
concerned the scope of an express preemption
provision in the Federal Aviation Administration
Authorization Act of 1994 (FAAAA) that prohibits
state laws that are “related to” prices, routes, or
services of commercial motor vehicles. 49 U.S.C. §
14501(c)(1). Although Dilts held that this provision
did not preempt California’s MRB rules, see 769 F.3d
at 647—50, we did not interpret the preemption
provision at issue here. Dilts therefore did not
address whether the MRB rules could fall within
section 31141’s scope. Indeed, the plaintiffs in Dilts
worked exclusively in California as short-haul
drivers and were thus not even “covered by . . .
federal hours-of-service regulations.” Id. at 648 n.2.
Similarly, although the United States filed an
amicus brief in Dilts adhering to its 2008 determina­
tion that the MRB rules were not preempted under
49 U.S.C. § 31141, the government also noted that
the agency had “broad discretion” in interpreting
that statute. See Brief for the United States as
Amicus Curiae, Dilts, 769 F.3d 637 (No. 12-55705),
2014 WL 809150, at *26-27. The Dilts amicus brief
did not maintain that the FMCSA’s 2008 interpreta­
tion was unambiguously compelled.
Instead, it
insisted the interpretation deserved Chevron defer­
ence. Id. Thus, neither our decision in Dilts nor the
United States’ position in that case creates an
impediment to the FMCSA’s current preemption
determination.

Appendix IBT v. FMCSA - 26
We therefore hold that the FMCSA permis­
sibly determined that California’s MRB rules were
State regulations “on commercial motor vehicle
safety,” so that they were within the agency’s
preemption authority. 49 U.S.C. § 31141(a).
B
The FMCSA next was required to determine
whether the MRB rules were “less stringent than,”
had the “same effect” as, or were “additional to or
more stringent than” the federal regulations. 49
U.S.C. § 31141(c)(1). The FMCSA found the third
option correct. See 83 Fed. Reg. at 67,474-75.
Petitioners argue this determination was arbitrary
and capricious. Our review is “highly deferential,
presuming the agency action to be valid and
affirming the agency action if a reasonable basis
exists for its decision.” Natl Mining Ass’n v. Zinke,
877 F.3d 845, 866 (9th Cir. 2017) (quotations
omitted). We hold that the FMCSA’s determination
on this point was reasonable and supported.
The FMCSA concluded that the MRB rules
were “additional to or more stringent than” federal
regulations because California requires more breaks,
more often, and with less flexibility as to timing. 83
Fed. Reg. at 67,474-75. Federal regulations general­
ly require that a driver working more than eight
hours must take a 30-minute break during the first
eight hours, while providing flexibility as to when
the break takes place. See 49 C.F.R. § 395.3(a)(3)(ii).
By contrast, California generally requires a 30minute meal break within the first five hours of
work, another 30-minute meal break over the next
five hours, and additional 10- minute rest periods

Appendix IBT v. FMCSA - 27
every four hours. Cal. Lab. Code § 512(a); Cal. Code
Regs. tit. 8, § 11090(ll)(A)-(B), (12). The 10-minute
rest breaks “insofar as practicable shall be in the
middle of each work period.” Cal. Code Regs. tit. 8, §
11090(12). The differences between California and
federal law thus support the agency’s determination
that the MRB rules impose requirements “additional
to or more stringent than” federal law. 49 U.S.C. §
31141(c)(1)(C). Indeed, California acknowledges that
its rules result in “more time offO during the
workday.”
Petitioners make two main arguments in
response. First, petitioners argue that California
law has some flexibility in its design. For example,
employees may agree to waive certain meal breaks.
Cal. Lab. Code § 512(a); Cal. Code Regs. tit. 8, §
11090(1 l)(A)-(B). Employers can also seek exemp­
tions from the rest break requirements from Califor­
nia’s Labor Commissioner. Cal. Code Regs. tit. 8, §
11090(17). And the California Supreme Court has
noted that rest breaks may take place at a time other
than the middle of the work period “where practical
considerations render [that] infeasible.” Brinker
Rest. Corp., 273 P.3d at 530.
Nonetheless, as compared to the federal
regulations, the California rules still require more
breaks, with greater frequency, and with lesser
ability to adjust the break time. See 83 Fed. Reg. at
67,474-75. The degree of flexibility that California
law affords thus does not undermine the agency’s
conclusion that California’s MRB rules are still
“additional to or more stringent than” federal
requirements.

Appendix IBT v. FMCSA - 28
Second, petitioners point out that, rather than
provide the meal or rest breaks, an employer can
“pay the employee one additional hour of pay at the
employee’s regular rate of compensation for each
workday that the meal or rest or recovery period is
not provided.” Cal. Lab. Code § 226.7(c); Cal. Code
Regs. tit. 8, § 11090(1 l)(D), (12)(B). Petitioners thus
argue that California law does not really impose
additional or more stringent requirements than
federal law because an employer may simply pay to
avoid complying with the MRB rules. It is not
apparent how petitioners’ characterization changes
the analysis because employers under California law
would still either need to provide breaks or make
break-related payments that federal law does not
require. See 83 Fed. Reg. at 67,475 n.9. Regardless,
the agency’s decision was consistent with California
law.
As the FMCSA noted, California treats its
MRB rules as requirements, providing that employ­
ers “shall not” deny the required breaks while
creating a monetary remedy for their “fail[ure]” to do
so. Cal. Lab. Code § 226.7(b), (c); see also 83 Fed.
Reg. at 67,475. As California acknowledged at oral
argument, an employer’s failure to provide the
required breaks is also a misdemeanor under
California law. See Cal. Lab. Code § 1199; Ward v.
United Airlines, Inc., 466 P.3d 309, 315 (Cal. 2020)
(noting that California Labor Code § 1199(c)
“mak[es] violation of an IWC wage order a mis­
demeanor”). Although California represents that
these misdemeanor prosecutions have rarely, if ever,
occurred, the apparent availability of this remedy
underscores that failure to comply with the break
requirements is a legal violation.

Appendix IBT v. FMCSA - 29
And that is how the California Supreme Court
has treated them, in a series of decisions on which
the FMCSA relied.
In Kirby v. Immoos Fire
Protection, Inc., 274 P.3d 1160 (Cal. 2012), that court
explained that “Section 226.7 is not aimed at
protecting or providing employees’ wages. Instead,
the statute is primarily concerned with ensuring the
health and welfare of employees by requiring that
employers provide meal and rest periods as man­
dated by the IWC.” Id. at 1167. As a result, “the
legal violation is nonprovision of meal or rest
breaks.” Id. at 1168. The court was clear- “section
226.7 does not give employers a lawful choice
between providing either meal and rest breaks or an
additional hour of pay” because “[t]he failure to
provide required meal and rest breaks is what
triggers a violation of section 226.7.” Id. at 1168.
Petitioners cite Augustus v. ABM Security
Services, Inc., 385 P.3d 823 (Cal. 2016), and Murphy
v. Kenneth Cole Productions, Inc., 155 P.3d 284 (Cal.
2007). But neither case suggests that the FMCSA’s
decision was arbitrary or capricious. In Augustus,
the California Supreme Court noted that if employ­
ers “find it especially burdensome to relieve their
employees of all duties during rest periods,” they
have the “optionO” to “pay the premium pay set forth
in . . . section 226.7.” 385 P.3d at 834. But Augustus
cautioned that the payment option does not “impl[y]
that employers may pervasively interrupt scheduled
rest periods, for any conceivable reason—or no
reason at all.” Id. at 834 n.14. And Augustus
clarified that payments instead of breaks “should be
the exception rather than the rule, to be used when
the employer—because of irregular or unexpected
circumstances such as emergencies—has to summon

Appendix IBT v. FMCSA - 30
an employee back to work.” Id.
Murphy likewise does not undermine the
FMCSA’s reasoning. In Murphy, a pre-Kirby decis­
ion, the California Supreme Court held that claims
for additional wages for violating the MRB rules
were governed by the statute of limitations period for
wage claims, not the shorter limitations period for
penalties. 155 P.3d at 297. But this does not change
the overall characterization of the MRB rules as
requiring meal and rest breaks, so that failing to
provide them is a “legal violation.” Kirby, 274 P.3d
at 1167. As Kirby explained in reconciling Murphy,
“Wo say that a section 226.7 remedy is a wage ... is
not to say that the legal violation triggering the
remedy is nonpayment of wages.” Id. at 1168. The
FMCSA in its preemption determination addressed
petitioners’ reliance on Murphy and explained how
(per the California Supreme Court) Murphy was
consistent with Kirby. 83 Fed. Reg. at 67,475. That
reasoning was not arbitrary or capricious.
In short, the FMCSA faithfully interpreted
California law in finding that California’s rules were
“additional to or more stringent than” federal
regulations. 49 U.S.C. § 31141(c)(1)(C).
C
At this point in its analysis, the FMCSA could
preempt the MRB rules as applied to drivers of
property-carrying commercial vehicles if it decided
that the State law (l) “has no safety benefit” or (2) “is
incompatible with the regulation prescribed by the
Secretary,” or (3) that “enforcement of the State law
or regulation would cause an unreasonable burden

Appendix IBT v. FMCSA-31
on interstate commerce.” Id. § 31141 (c) (4) (A)-(C).
The agency found all three criteria met. 83 Fed. Reg.
at 67,475-80. Petitioners argue that each finding
was arbitrary and capricious.
Any one of the three enumerated grounds is
enough to justify a preemption determination. See
49 U.S.C. § 31141(c)(4). We do not address the
agency’s first two findings because we hold that the
agency did not act arbitrarily or capriciously in
finding that enforcement of the MRB rules “would
cause an unreasonable burden on interstate
commerce.” Id. § 31141(c)(4)(C).
In reaching that conclusion, the FMCSA found
that the MRB rules “impose significant and substan­
tial costs stemming from decreased productivity and
administrative burden.” 83 Fed. Reg. at 67,479. The
administrative record supports these conclusions. As
to decreased productivity, the FMCSA could reason­
ably determine that the MRB rules cause an un­
reasonable burden on interstate commerce because
they “decrease each driver’s available duty hours.”
Id. The FMCSA examined the federal and California
schemes and explained how the MRB rules required
drivers to spend more time on breaks. See, e.g., id.
at 67,478 & n.12.
The FMCSA also relied on public comments
demonstrating how the MRB rules’ more demanding
break requirements affected productivity and, in
turn, the efficient operation of an interstate delivery
system. Id. at 67,479. For example, FedEx Corpora­
tion explained that “to take off-duty breaks, the
‘drivers must slow down, exit the roadway, find a
safe and suitable location to park and secure their

Appendix IBT v. FMCSA - 32
vehicles, and then exit the vehicle’ and that the
company has to build additional time, up to 90
minutes, into the drivers’ routes.” Id. Other public
comments and studies showed the financial impact of
the lost productivity and its effect on distribution
systems.
These costs were exacerbated by
Id.
“California’s share of the national economy” and the
fact that “California’s three major container ports
carry approximately 50% of the nation’s total
container cargo volume.” Id. at 67,478-79. The
evidence in the administrative record thus supports
the FMCSA’s determination that lost driving time
leads to lost productivity and burdens interstate
commerce.
The FMCSA also reasonably relied on “the
administrative burden associated with complying
with the MRB rules.” Id. at 67,479. This burden
included higher compliance costs, increases in ad­
ministrative and operations headcount, changes to
delivery and logistics programs, revision of routes,
and changes to compensation plans. Id. The agency
also properly considered “the effect on interstate
commerce of implementation of [the MRB rules] with
the implementation of all similar laws and
regulations of other States.” 49 U.S.C. § 31141(c)(5).
The FMCSA noted that twenty States had their own
meal and rest break rules, and this “patchwork of
requirements,” increased the burden on interstate
commerce. 83 Fed. Reg. at 67,479-80. Among other
things, companies had to create “elaborate sched­
ules” to navigate the different State requirements.
Id. Taken together, all these findings support the
agency’s determination that the MRB rules “cause an
unreasonable burden on interstate commerce.” 49
U.S.C. 31141(c)(4)(C).

Appendix IBT v. FMCSA - 33
Petitioners’ counterarguments do not show
that the agency acted arbitrarily or capriciously.
Contrary to petitioners’ assertion, the agency did
weigh costs and benefits in concluding that the MRB
rules posed an unreasonable burden on interstate
commerce. The FMCSA “acknowledge[d] that the
State of California has a legitimate interest in
promoting driver and public safety.” 83 Fed. Reg. at
67,479. It explained, however, that “the Federal
[hour of service] rules and the provisions in the
[federal motor carrier safety regulations] relating to
fatigued driving and employer coercion serve to
promote that interest.” Id. Properly understood, the
FMCSA simply determined that, in its view, federal
regulations adequately and more appropriately
balanced the competing interests between safety and
economic burden. Id.', see also id. at 67,476 (explain­
ing how federal regulations “balancte] the need to
prevent excessive hours of continuous driving with a
driver’s need for flexibility in scheduling a rest
break”). Petitioners have not shown that conclusion
was unreasonable. Nor was the FMCSA required to
conduct its preemption assessment in a manner
identical to a dormant Commerce Clause undue
burden analysis. See Pike v. Bruce Church, Inc., 397
U.S. 137 (1970).5
We likewise reject petitioners’ assertion that
the FMCSA’s cumulative burden analysis was flawed

5 One petitioner argues that the FMCSA did not consider the
non- safety benefits of the MRB rules, such as workplace
dignity or higher wages for drivers. But there is no indication
that the statute requires the FMCSA to consider such factors,
which are likely outside its expertise.

Appendix IBT v. FMCSA - 34
because industry must already comply with varying
State laws in other areas, such as environmental and
anti*discrimination laws. In petitioners’ view, the
“marginal cost” of complying with “one more set” of
varying State laws is “negligible.” But this argu­
ment does not show that the FMCSA’s preemption
determination, made under a statute which gives it
the express authority to do so, was arbitrary or
capricious.
As the FMCSA noted, many of the state laws
that petitioners cite “are well outside the scope of the
Agency’s statutory authority.”
83 Fed. Reg. at
67,480. And because motor carriers will always be
subject to varying state laws to some extent, petition­
ers’ argument, if accepted, would significantly limit
the FMCSA’s ability to determine that divergent
state laws “on commercial motor vehicle safety” pose
an unreasonable burden on interstate commerce.
Nothing in the statute suggests the agency’s preemp­
tive powers are so constrained. Indeed, the statute is
directly to the contrary- it allows the agency to
consider the cumulative “effect on interstate com­
merce of implementation” of the state law in question
“with the implementation of all similar laws and
regulations of other States.” 49 U.S.C. § 31141(c)(5).
In any event, the FMCSA here had more than
sufficient basis to conclude that the MRB rules
burden interstate commerce in a way that is not
merely “negligible.”
Finally, petitioners err in claiming that two of
our decisions invalidate the FMCSA’s preemption
determination. They do not. In Sullivan v. Oracle
Corp., 662 F.3d 1265 (9th Cir. 2011), we held that
California’s overtime rules did not violate the

Appendix IBT v. FMCSA - 35
dormant Commerce Clause because “California
applies its Labor Code equally to work performed in
California, whether that work is performed by
California residents or by out-of-state residents.” Id.
at 1271. That holding has no apparent relevance to
this case.
Nor did we resolve the cumulative burden
question as a matter of law when we stated in Dilts
that “applying California’s meal and rest break laws
to motor carriers would not contribute to an
impermissible ‘patchwork’ of state-specific laws,
defeating Congress’ deregulatory objectives.” 769
F.3d at 647. As we have noted, Dilts did not concern
the statute at issue here. And the above statement
turned on Dilts’ determination that the meal and
rest break laws were not “related to” prices, routes,
and services under the FAAAA’s preemption
provision. Id. Like Sullivan, Dilts does not foreclose
the agency’s preemption determination.6

6

IBT Local 2785 briefly argues that the FMCSA also
flouted numerous statutes and executive orders, but fails to
explain how the agency violated these various laws. We do not
address these arguments, as IBT Local 2785 “failed to argue”
these issues “with any specificity in [its] briefing.” Carmickle
v. Comm’r, Soc. Sec. Admin., 533 F.3d 1155, 1161 n.2 (9th Cir.
2008).
Petitioners Ly and Morgan also ask us to review an
FMCSA legal memorandum issued months after the preemp­
tion determination. In that memorandum, an FMCSA lawyer
opined that the agency’s preemption decision applied retro­
actively. This determination was not part of the preemption
determination on review, see 49 U.S.C. § 31141(f), nor was it
final agency action, see 5 U.S.C. § 704. We thus do not
consider the retroactivity issue.

Appendix IBT v. FMCSA - 36

We appreciate petitioners’ arguments in favor
of their preferred approach to governance in the area
of commercial motor vehicle safety. But in this case,
petitioners’ objections are ultimately as much to the
statute Congress drafted as they are to the FMCSA’s
preemption determination. Under the principles
that govern our evaluation of the agency’s decision,
the petitions for review must be
DENIED.

Finally, pro se intervenor William Trescott asks the
court to vacate various federal regulations. These issues are
also not part of the FMCSA’s preemption determination and
are thus not before us. 49 U.S.C. § 31141(f). Trescott’s motion
to expedite the appeal is DENIED as moot.

Appendix IBT v. FMCSA - 37
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
INTERNATIONAL BROTHERHOOD JAN 25 2021
OF TEAMSTERS, LOCAL 2785; and molly c. dwyer,
EVERARDO LUNA,
CLERK, U.S. COURT
OF APPEALS

Petitioners,
v.

No. 18-73488

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION,
Respondent,

FMCS No.
2018-0304
Federal Motor
Carrier Safety
Administration

WILLIAM B. TRESCOTT,
Intervenor.

ORDER

INTERNATIONAL BROTHERHOOD
OF TEAMSTERS; et al.,
Petitioners,
v.

No. 19-70323
FMCS No.
2018-0304

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION and
U.S. DEPARTMENT OF
TRANSPORTATION,
Respondents.

Appendix IBT v. FMCSA - 38

LABOR COMMISSIONER FOR THE
STATE OF CALIFORNIA,
Petitioner,
v.

No. 19-70329
FMCS No.
2018-0304

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION,
Respondent.

DUY NAM LY; PHILLIP
MORGAN,
Petitioners,
v.

No. 19-70413
FMCS No.
2018-0304

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION and
U.S. DEPARTMENT OF
TRANSPORTATION
Respondents.

Before: NGUYEN, HURWITZ, and BRESS, Circuit
Judges.
The panel has unanimously voted to deny
intervenor William Prescott’s petition for panel
rehearing (Dkt. No. 131). The petition is DENIED.

Appendix IBT v. FMCSA - 39
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
INTERNATIONAL BROTHERHOOD MAR 25 2021
OF TEAMSTERS, LOCAL 2785; and molly c. dwyer,
EVERARDO LUNA,
CLERK, U.S. COURT
OF APPEALS

Petitioners,
v.

No. 18-73488

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION,
Respondent,

FMCS No.
2018-0304
Federal Motor
Carrier Safety
Administration

WILLIAM B. TRESCOTT,
Intervenor.

ORDER

INTERNATIONAL BROTHERHOOD
OF TEAMSTERS; et al.,
Petitioners,
v.

No. 19-70323
FMCS No.
2018-0304

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION and
U.S. DEPARTMENT OF
TRANSPORTATION,
Respondents.

Appendix IBT v. FMCSA - 40

LABOR COMMISSIONER FOR THE
STATE OF CALIFORNIA,
Petitioner
v.

No. 19-70329
FMCS No.
2018-0304

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION,
Respondent.

DUY NAM LY; PHILLIP
MORGAN,
Petitioners
v.

No. 19-70413
FMCS No.
2018-0304

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION and
U.S. DEPARTMENT OF
TRANSPORTATION
Respondents.

Before: NGUYEN, HURWITZ, and BRESS, Circuit
Judges.

Appendix IBT v. FMCSA - 41
The panel has unanimously voted to deny the
petitions for panel rehearing and rehearing en banc.
The full court has been advised of the petitions for
rehearing en banc and no judge of the court has
requested a vote on any of the petitions. Fed. R.
App. P. 35. The petitions for panel rehearing and
rehearing en banc (Dkt. 135, 136, 137, 138) are
DENIED.

Appendix IBT v. FMCSA - 42
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
INTERNATIONAL BROTHERHOOD APR 02 2021
OF TEAMSTERS, LOCAL 2785; and molly c. dwyer,
EVERARDO LUNA,
CLERK, U.S. COURT
OF APPEALS

Petitioners,
v.

No. 18-73488

FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION,
Respondent,

FMCS No.
2018-0304
Federal Motor
Carrier Safety
Administration

WILLIAM B. TRESCOTT,
Intervenor.

MANDATE

INTERNATIONAL BROTHERHOOD
OF TEAMSTERS; et al.,
Petitioners,
v.
FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION and
U.S. DEPARTMENT OF
TRANSPORTATION,
Respondents.

No. 19-70323
FMCS No.
2018-0304
Federal Motor
Carrier Safety
Administration

Appendix IBT v. FMCSA - 43

LABOR COMMISSIONER FOR THE
STATE OF CALIFORNIA,
Petitioner,
v.
FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION,

No. 19-70329
FMCS No.
2018-0304
Federal Motor
Carrier Safety
Administration

Respondent.

DUY NAM LY; PHILLIP
MORGAN,
Petitioners
v.
FEDERAL MOTOR CARRIER
SAFETY ADMINISTRATION and
U.S. DEPARTMENT OF
TRANSPORTATION

No. 19-70413
FMCS No.
2018-0304
Federal Motor
Carrier Safety
Administration

Respondents.
The judgment of this Court, entered January
15, 2021, takes effect this date.
This constitutes the formal mandate of this

Appendix IBT v. FMCSA - 44

Court issued pursuant to Rule 41(a) of the Federal
Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Nixon Antonio Callejas Morales
Deputy Clerk
Ninth Circuit Rule 27-7

